                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
April 3, 2012

Report Number: A-07-11-04185

Ms. Susan E. Birch
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203

Dear Ms. Birch:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of Colorado Direct Medical Service and Specialized
Transportation Costs for the Medicaid School Health Services Program for State Fiscal Year
2008. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-11-04185 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Susan E. Birch


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
   Department of Health and Human Services
               OFFICE OF

          INSPECTOR GENERAL





REVIEW OF COLORADO DIRECT MEDICAL

     SERVICE AND SPECIALIZED

  TRANSPORTATION COSTS FOR THE

 MEDICAID SCHOOL HEALTH SERVICES

PROGRAM FOR STATE FISCAL YEAR 2008





                          Daniel R. Levinson

                           Inspector General


                              April 2012

                            A-07-11-04185

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                     EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program and Health-related Services to Children

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Congress amended section 1903(c) of the Act in 1988 to allow Medicaid coverage of health-
related services provided to children under the Individuals with Disabilities Education Act. The
school health program permits children to receive health-related services through each child’s
individualized education plan, generally without having to leave school.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. These provisions include
temporary increases in States’ Federal medical assistance percentage (FMAP). The Federal
Government pays its share of a State’s medical assistance expenditures under Medicaid based on
the FMAP, which varies depending on that State’s relative per capita income.

Medicaid allows the use of funds from units of government within the State to fund a portion of
the State’s share of Medicaid expenditures. States may use funds that have been certified by
units of government within the State as representing Medicaid expenditures for the State share.
These funds are referred to as certified public expenditures (CPE).

Colorado Medicaid School Health Services Program

The Department of Health Care Policy and Financing (State agency) administers the Medicaid
program in Colorado, including the School Health Services (SHS) program. In June 2007, the
State agency contracted with Public Consulting Group, Inc., to manage portions of the SHS
program.

To ascertain and allocate the portion of time and activities that is related to the provision of
Medicaid services, Colorado developed a methodology that is approved by CMS. Random
moment sampling, which makes use of random moment time studies (RMTS), is an approved
allocation methodology and must reflect all of the time and activities (whether allocable or
allowable under Medicaid) performed by employees participating in the SHS program.

On an ongoing basis, participating school districts in Colorado submitted claims to the State
agency for SHS provided to students. The school districts received interim payments from the



                                                 i
State agency for these services. The State agency claimed Federal reimbursement for these
interim payments on a quarterly basis, but it reconciled these payments to actual costs annually.
That is, after determining annual actual costs for each participating school district, the State
agency reconciled the total interim payments for the State fiscal year for the participating school
district to the annual actual costs. If the school district had received an overpayment from the
State agency, it remitted the difference to the State agency. If on the other hand the participating
school district had been underpaid by the State agency, it received a cost reconciliation payment
from the State agency.

The State agency claimed $21,901,743 ($13,238,518 Federal share) for costs associated with
SHS provided by 77 participating school districts for the period July 1, 2008, through
June 30, 2009. Of this, the Weld County School District #6 (Greeley school district) claimed
$1,284,045 ($767,651 Federal share) and the Adams Arapahoe School District #28J (Aurora
school district) claimed $1,612,864 ($991,543 Federal share); we focused on these two school
districts in this review, with particular attention to that portion of SHS that dealt with direct
medical service costs including specialized transportation costs.

OBJECTIVE

Our objective was to determine whether the direct medical service costs including specialized
transportation costs that the State agency claimed for SHS provided during the period
July 1, 2008, through June 30, 2009, were reasonable, allowable, and adequately supported
pursuant to applicable Federal and State requirements.

SUMMARY OF FINDINGS

Not all of the costs that the State agency claimed for SHS during the period July 1, 2008, through
June 30, 2009, were reasonable, allowable, and adequately supported pursuant to applicable
Federal regulations and State requirements. Specifically, of the $1,759,194 (Federal share) that
the State agency claimed in costs for the Greeley and Aurora school districts for this period,
$247,736 (Federal share) was unallowable for Federal reimbursement due to a variety of errors.

In addition, errors identified during our review of the audited (Greeley and Aurora) school
districts impacted not only these school districts, but also other Colorado school districts and the
State agency. As a result of these errors, these other Colorado school districts received a total of
$467,153 (Federal share) in unallowable Medicaid payments for the period July 1, 2008, through
June 30, 2009. Specifically:

   	 Errors in the RMTS allocation methodology affected the calculation of the statewide
      RMTS percentages. As a result, other participating Colorado school districts received
      unallowable Federal reimbursement totaling $428,608.

   	 Two other school districts submitted interim claims for Federal reimbursement but did
      not submit annual actual costs for reconciliation. As a result, these two school districts
      received unallowable Federal reimbursement totaling $38,545.
        



                                                 ii
As an additional result of these errors, the State agency received a total of $156,357 (Federal
share) in unallowable Medicaid payments for the period July 1, 2008, through June 30, 2009.
Specifically:

   	 For the errors impacting the two audited school districts and all other Colorado school
      districts, the State agency received reimbursements under the Recovery Act at the
      temporarily enhanced FMAP rate. The State agency retained this additional funding
      because it used a CPE funding mechanism and received unallowable Federal
      reimbursement totaling $146,625.

   	 The State agency did not apply the FMAP rate in effect at the time interim payments
      were made to the provider. In addition, the cost reconciliation payments were not
      claimed in the quarter in which the service was provided. As a result, the State agency
      received unallowable Federal reimbursement totaling $9,732.

These errors totaling $871,246 (Federal share) in questioned costs occurred because the State
agency did not have adequate policies and procedures to monitor the SHS program and to ensure
that all costs claimed met Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   	 refund $871,246 ($207,364 for the Greeley school district, $40,372 for the Aurora school
      district, $467,153 for all other participating school districts, and $156,357 for the State
      agency) to the Federal Government for unallowable SHS expenditures; and

   	 strengthen policies and procedures to ensure that SHS expenditures are reasonable and
      accurate, and are properly claimed and documented, by reviewing RMTS responses,
      direct medical costs, other costs, health care professionals’ qualifications, and all
      calculations used in the annual cost reconciliation for a sample of school districts each
      year.

AUDITEE COMMENTS

In written comments on our draft report, the State agency disagreed with our first
recommendation and agreed with our second recommendation. The State agency described the
strengthened policies and procedures that it said it has developed and implemented. The State
agency said that our review did not take those program improvements into account and added
that it had already addressed many of the issues we had identified in our review.

Regarding our first recommendation, the State agency disagreed with all of our questioned costs
and said that it began providing annual training to school districts, beginning in August 2008,
regarding the issues identified in many of our findings. The State agency added that beginning
in the autumn of 2010 it implemented a process for conducting program reviews and cost report
audits.


                                                iii
The State agency raised more specific objections to the following findings: unqualified health
care professionals, inaccurately coded RMTS responses, school districts not participating in the
annual cost reconciliation, and interim claims and cost reconciliation payments claim in incorrect
quarters. The State agency noted that after receiving our draft report it located and provided to
us additional documentation on licensure and certification of three health care professionals.
(The State agency subsequently clarified that it had provided documentation for only two health
care professionals.) The State agency also disagreed with 116 out of the 206 RMTS responses
that we had identified as inaccurately coded and stated that these random moments had been
coded in a manner consistent with CMS’s guidance. The State agency said that 18 of the 116
RMTS responses were related to annual or triennial IEP reviews and, according to CMS-
approved coder instructions, should have been coded to non-allowable codes (i.e., non-Medicaid
activities) rather than being reclassified (as we had done, during our fieldwork) to case
management codes, which are allowable Medicaid codes.
        
With respect to our finding that two school districts submitted interim claims for Federal
reimbursement but did not submit actual annual cost reports, the State agency said that the
interim payments had been made in a timely manner and that it reserved the right to re-open the
cost reports for reconciliation. With respect to our finding that the State agency made interim
claims and claimed cost reconciliation payments in incorrect quarters, the State agency said that
we based this finding on an examination of claims data and payment data in the State agency’s
Medicaid Management Information System (MMIS), instead of relying on the Colorado
Financial Reporting System (COFRS), which is the State’s accounting system. In addition, the
State agency said that the costs reported on the CMS-64 were based on the paid date shown in
COFRS, which is the date that the State actually incurred the expenditure.
        
The State agency’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we accepted the State agency’s newly provided
documentation for two of the eight health care professionals whom we had identified as
unqualified in our draft report; we adjusted this finding, the associated questioned costs, and the
related recommendation accordingly.

With respect to the State agency’s comments on the 206 inaccurately coded RMTS responses,
we agree with the comments related to the 18 RMTS responses related to annual or triennial IEP
reviews. We have revised the finding, questioned costs, and the recommendation associated with
the 18 RMTS responses to reflect that the responses were accurately coded to non-Medicaid
activities. The effect of this revision increased the amount of costs we are questioning, for the
two audited school districts, other participating Colorado school districts and the State agency.
In addition, we continue to believe our findings and the associated questioned costs are valid for
the remaining 188 RMTS responses.

Nothing in the State agency’s comments regarding the two school districts that did not submit
their annual cost reports caused us to change this finding or the associated questioned costs.
Neither of these school districts completed or submitted an annual cost report, which includes a


                                                 iv
certification of funds statement certifying the provider’s actual, incurred costs/expenditures.
Moreover, the State agency did not complete the cost reconciliation process. According to the
State Plan Amendment, Attachment 4.19-B, section H, the cost reconciliation process must be
completed within 24 months of the end of the reporting period covered by the State agency’s
annual SHS cost report. The State agency, in its comments, did not provide support that cost
reports for the two school districts exist; in the absence of those cost reports, the State agency
would be unable to reopen them for reconciliation. Therefore, we maintain that this finding and
the associated questioned costs remain valid.

With respect to the State agency’s comments on our finding that it made interim claims and
claimed cost reconciliation payments in incorrect quarters, nothing in the State agency’s
comments caused us to change this finding or the associated questioned costs. We analyzed both
the payment data from the COFRS and the claim data from the MMIS in developing this finding.
Moreover, we understand that the State agency included costs on the CMS-64 based on the paid
date shown in COFRS, which is the date the State agency incurred the expenditure. However,
the State agency used funds provided by the participating school districts to supply the non-
Federal share of the cost reconciliation payments. Therefore, when reporting expenditures for
Federal reimbursement, the State agency was required to apply the FMAP rate in effect at the
time the school district recorded the expenditure (i.e., at the time the service was provided). We
maintain that our finding that the State agency claimed costs using an incorrect FMAP rate
remains valid.

Nothing in the State agency’s comments regarding our other findings caused us to change our
findings or the associated questioned costs that we convey in our first recommendation. While
we note the information the State agency provided regarding its strengthened policies and
procedures and its enhanced training, and credit the State agency accordingly, we also note that
our audit period encompassed costs claimed for SHS provided during the period July 1, 2008,
through June 30, 2009. For half of the findings in this report, the State agency’s comments
provided no information to support its disagreement other than descriptions of additional
training, policy guidance, and program reviews. These measures, which enhance the State
agency’s agreement with our second recommendation, are commendable but do not invalidate
our findings (other than the adjusted findings mentioned above) or the questioned costs that form
the basis of our first recommendation.




                                                 v
                                                   TABLE OF CONTENTS 




INTRODUCTION....................................................................................................................... 1 


       BACKGROUND ................................................................................................................ .1 

         Medicaid Program and Health-related Services to Children .......................................... 1 

         Colorado Medicaid School Health Services Program ....................................................2 


       OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3 

         Objective .........................................................................................................................3 

         Scope ............................................................................................................................3 

         Methodology ...................................................................................................................4 


FINDINGS AND RECOMMENDATIONS ............................................................................. 5 


       INACCURACIES IDENTIFIED FOR TWO AUDITED SCHOOL DISTRICTS ............. ? 

         Incorrectly Calculated Individualized Education Plan Student Utilization Ratio ..........7 

         Unqualified Health Care Professionals ...........................................................................8 

         Claimed Costs That ShouldHave Been Offset by Other Federal Revenue Sources 

           But Were Not ...............................................................................................................9 

         Inaccurate Transportation Costs .....................................................................................9 

         Inaccurately Coded Random Moment Time Study Responses ..................................... 10 


       INACCURACIES IDENTIFIED FOR OTHER SCHOOL DISTRICTS ......................... 10 

          Inaccurately Coded Random Moment Time Study Responses .................................... lO 

          School Districts Not Participating in Annual Cost Reconciliation .............................. 11 


       INACCURACIES IDENTIFIED FOR THE STATE AGENCY ...................................... 11 

          State Agency Recovery Act Questioned Costs Associated with Other Findings ........ 11 

          Interim Claims and Cost Reconciliation Payments Claimed in Incorrect Quarters ..... 12 


       SCHOOL HEALTH SERVICES CLAIMING PROCESS 

         NOT ADEQUATELY MONITORED ......................................................................... 12 


       EFFECT OF UNALLOWABLE CLAIMS PAID .............................................................. 12 


       RECOMMENDATIONS ................................................................................................... 13 


       AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .... 13 

         Incorrectly Calculated Individualized Education Plan Student Utilization 

           Ratio for the Two Audited School Districts ............................................................. 14 

         Unqualified Health Care Professionals in the Two Audited School Districts ............. 14 





                                                                     Vl
            Claimed Costs in the Two Audited School Districts That Should Have Been 

              Offset by Other Federal Revenue Sources But Were Not ........................................ 15 

            Inaccurate Transportation Costs in the Two Audited School Districts ...................... .15 

            Inaccurately Coded Random Moment Time Study Responses in the Two 

              Audited School Districts and for Other Participating Colorado School Districts .... 16 

            Other Colorado School Districts Not Participating in Annual Cost Reconciliation.... 18 

            Interim Claims and Cost Reconciliation Payments Claimed by the State Agency 

              in Incorrect Quarters ................................................................................................. 18 


OTHER MATTER.................................................................................................................... 19 


APPENDIX

       AUDITEE COMMENTS




                                                                  Vll
                                       INTRODUCTION 


BACKGROUND

Medicaid Program and Health-related Services to Children

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Congress amended section 1903(c) of the Act in 1988 to allow Medicaid coverage of health-
related services provided to children under the Individuals with Disabilities Education Act. The
school health program permits children to receive health-related services through each child’s
individualized education plan (IEP), generally without having to leave school.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provided an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
Federal medical assistance percentage (FMAP). The Federal Government pays its share of a
State’s medical assistance expenditures under Medicaid based on the FMAP, which varies
depending on that State’s relative per capita income.

Medicaid allows the use of funds from units of government within the State to fund a portion of
the State’s share of Medicaid expenditures. Pursuant to section 1903(w)(6)(A) of the Act and 42
CFR § 433.51(b), States may use funds that have been certified by units of government within
the State as representing Medicaid expenditures for the State share. These funds are referred to
as certified public expenditures (CPE).

According to CMS’s Medicaid and School Health: A Technical Assistance Guide (the technical
guide), issued in August 1997, school health-related services included in a child’s IEP may be
covered if all relevant statutory and regulatory requirements are met. In addition, the technical
guide provides that a State may cover services included in a child’s IEP as long as (1) the
services are listed in section 1905(a) of the Act and are medically necessary; (2) all other
relevant Federal and State regulations are followed; and (3) the services are included in the State
plan or are available under the Early and Periodic Screening, Diagnosis, and Treatment Medicaid
benefit. Covered direct medical services may include, but are not limited to, physical therapy,
occupational therapy, speech pathology/therapy, psychological counseling, nursing, and
specialized transportation services.




                                                1

Colorado Medicaid School Health Services Program

The Department of Health Care Policy and Financing (State agency) administers the Medicaid
program in Colorado, including the School Health Services (SHS) program. In June 2007, the
State agency contracted with Public Consulting Group, Inc. (the Contractor), to manage portions
ofthe SHS program.

To ascertain and allocate the portion of time and activities that is related to the provision of
Medicaid services, Colorado developed a methodology that is approved by CMS. Random
moment sampling, which makes use of random moment time studies (RMTS), is an approved
allocation methodology and must reflect all of the time and activities (whether allocable or
allowable under Medicaid) performed by employees participating in the SHS program.

Random Moment Time Study Data Collection and Reporting

The school districts submitted to the Contractor a list of all school district employees in the SHS
program (participants). The Contractor consolidated these personnel listings and statistically
selected participants from a statewide pool to include in the RMTS. The Contractor used a Web­
based RMTS system to assign, distribute, and submit the statistically selected date and time (the
random moment) to the selected participants. Each of the selected participants responded to a
series of questions identifying and explaining the activity he or she was performing at the
random moment. The Contractor then coded the random moment according to the responses
provided.

The Contractor analyzed the results of the RMTS responses on a statewide basis and determined,
and reported to the State agency, the percentages of time that school districts' staffs spent on
allowable SHS activities. For each State fiscal year (SFY), the Contractor applied the applicable
statewide percentage to personnel costs associated with the provision of SHS. In addition to the
statewide percentage, the calculation to determine the annual actual costs submitted for Federal
reimbursement in each school district's annual cost report also applied each school district's:

       • 	 IEP Student Utilization Ratio 1 to the personnel costs and other direct medical costs;

       • 	 Specialized Transportation Ratio 2 to transportation costs; and

       • 	 indirect cost rate to the personnel costs, other direct medical costs, and transportation
           costs.




1
    This ratio compares the number of Medicaid students with IEPs to the total number of students with IEPs.
2
  Each school district applies the Specialized Transportation Ratio to its transportation costs. The Specialized
Transportation Ratio compares Medicaid IEP transportation trips to total IEP transportation trips. If a particular
school district does not separately identify certain transportation costs, it also applies a Transportation Ratio which
compares IEP students receiving transportation to the school district's total student population receiving
transportation.


                                                            2

Claims and Payments for School Health Services

On an ongoing basis, participating school districts in Colorado submitted claims to the State
agency for SHS provided to students. The school districts received interim payments from the
State agency for these services. The State agency claimed Federal reimbursement for these
interim payments on a quarterly basis, but it reconciled these payments to actual costs annually.
That is, after determining annual actual costs for each participating school district, the State
agency reconciled the total interim payments for the State fiscal year for the participating school
district to the annual actual costs. If the school district had received an overpayment from the
State agency, it remitted the difference to the State agency. If on the other hand the participating
school district had been underpaid by the State agency, it received a cost reconciliation payment
from the State agency.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter and
is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures with
supporting documentation.

The State agency claimed $21,901,743 ($13,238,518 Federal share) for costs associated with
SHS provided by 77 participating school districts for the period July 1, 2008, through
June 30, 2009. Of this, the Weld County School District #6 (Greeley school district) claimed
$1,284,045 ($767,651 Federal share) and the Adams Arapahoe School District #28J (Aurora
school district) claimed $1,612,864 ($991,543 Federal share); we focused on these two school
districts in this review, with particular attention to that portion of SHS that dealt with direct
medical service costs including specialized transportation costs?

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the direct medical service costs including specialized
transportation costs that the State agency claimed for SHS provided during the period
July 1, 2008, through June 30, 2009, were reasonable, allowable, and adequately supported
pursuant to applicable Federal and State requirements.

Scope

We reviewed costs claimed for SHS provided during the period July 1, 2008, through
June 30,2009. During this audit period, the State agency claimed $21,901,743 ($13,238,518
Federal share) for costs associated with SHS provided by 77 participating school districts in
Colorado. We performed an indepth review of the SHS expenditures filed on behalf of the
Greeley and Aurora school districts. We selected these two school districts based on the
amounts that the State agency claimed on their behalf for SHS during the period July 1, 2008,

3
    These Federal share amounts include reimbursements from the Recovery Act's temporary increase in FMAP.



                                                        3

through June 30, 2009, and the results of the annual cost reconciliations. The State agency
claimed $2,896,909 ($1,759,194 Federal share) for costs associated with SHS for these two
school districts.

We did not perform a detailed review of the State agency’s internal controls because our
objective did not require us to do so. We limited our internal control review to obtaining an
understanding of the State agency’s policies and procedures used to claim SHS expenditures.

We did not perform a detailed review of direct medical service costs including specialized
transportation costs at the remaining 75 participating school districts in Colorado. However,
because the State agency used statewide RMTS percentages to calculate SHS costs for all
Colorado school districts, we reviewed the RMTS responses from all of the participating school
districts. Any errors in the statewide RMTS percentages affected the SHS costs for every
participating school district. Therefore, we applied the revised statewide RMTS percentages to
the costs for all 77 participating school districts.

Although we reviewed the accuracy of the RMTS responses to the extent necessary to review the
costs claimed for SHS, we did not validate the responses provided by participants regarding their
activities at the specified random moment.

In general, we do not express an opinion on the total and Federal share amounts claimed on the
CMS-64 reports for the other 75 participating Colorado school districts except, as discussed
below, for the effect of the revised RMTS percentages on their SHS costs.

We conducted fieldwork at the State agency in Denver, Colorado, and at the Greeley and Aurora
school districts, from August 2010 to March 2011.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal and State requirements;

   	 reviewed the State agency’s policies and procedures concerning SHS, which included the
      State agency’s monitoring and oversight procedures;
        
   	 interviewed State agency employees to understand how they administered the Medicaid
      SHS program statewide;

   	 reconciled the State agency’s quarterly CMS-64 reports to the interim claims and annual
      cost reconciliations and to the State agency’s accounting records;

   	 reconciled the annual actual costs for the Greeley and Aurora school districts to 

      accounting records; 





                                                4

   	 interviewed Contractor employees to understand how they administered the SHS program
      and how the statewide RMTS percentages were calculated;

   	 interviewed Greeley and Aurora school district employees to understand how they 

      administered the SHS program; 


   	 compared Greeley and Aurora school districts’ personnel costs to payroll records to
      identify any personnel costs that were paid by other Federal programs;

   	 compared Greeley and Aurora school districts’ direct medical costs, transportation costs,
      indirect cost rates, IEP ratios, and transportation ratios reported on their annual cost
      reports to applicable supporting documentation;

   	 reviewed the registrations, certifications, and licenses for SHS participants at the Greeley
      and Aurora school districts;

   	 reviewed 9,000 RMTS responses completed by employees of all 77 participating school
      districts in Colorado to determine whether the activities performed were allowable
      Medicaid SHS activities;

   	 recalculated the Greeley and Aurora school districts’ annual cost reports using the 

      corrected expenditures, corrected IEP ratios, and the corrected statewide RMTS 

      percentages to determine the amounts that should have been claimed; 


   	 recalculated the other participating Colorado school districts’ annual cost reports using
      the audited statewide RMTS percentages to determine the amounts that should have been
      claimed;

   	 used the State agency’s formulas for calculating actual annual costs and determined the
      effect by comparing the original annual cost reports to the updated annual cost reports
      using audited costs and RMTS responses; and

   	 shared the results of this review, including the details of our recommended adjustments,
      with State agency officials on September 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Not all of the costs that the State agency claimed for SHS during the period July 1, 2008, through
June 30, 2009, were reasonable, allowable, and adequately supported pursuant to applicable
Federal regulations and State requirements. Specifically, of the $1,759,194 (Federal share) that


                                                5

the State agency claimed in costs for the Greeley and Aurora school districts for this period,
$247,736 (Federal share) was unallowable for Federal reimbursement due to a variety of errors.

In addition, errors identified during our review of the audited (Greeley and Aurora) school
districts impacted not only these school districts, but also other Colorado school districts and the
State agency. As a result of these errors, these other Colorado school districts received a total of
$467,153 (Federal share) in unallowable Medicaid payments for the period July 1, 2008, through
June 30, 2009. Specifically:

   	 Errors in the RMTS allocation methodology affected the calculation of the statewide
      RMTS percentages. As a result, other participating Colorado school districts received
      unallowable Federal reimbursement totaling $428,608.

   	 Two other school districts submitted interim claims for Federal reimbursement but did
      not submit annual actual costs for reconciliation. As a result, these two school districts
      received unallowable Federal reimbursement totaling $38,545.
        
As an additional result of these errors, the State agency received a total of $156,357 (Federal
share) in unallowable Medicaid payments for the period July 1, 2008, through June 30, 2009.
Specifically:

   	 For the errors impacting the two audited school districts and all other Colorado school
      districts, the State agency received reimbursements under the Recovery Act at the
      temporarily enhanced FMAP rate. The State agency retained this additional funding
      because it used a CPE funding mechanism and received unallowable Federal
      reimbursement totaling $146,625.

   	 The State agency did not apply the FMAP rate in effect at the time interim payments
      were made to the provider. In addition, the cost reconciliation payments were not
      claimed in the quarter in which the service was provided. As a result, the State agency
      received unallowable Federal reimbursement totaling $9,732.

Table 1 on the following page provides an itemization of the costs that we are questioning.




                                                 6

                                  Table 1: Itemization of Questioned Costs

                                                               All Other
                                                                School
                                      Greeley      Aurora       District     State Agency     Total
                                     Questioned   Questioned   Questioned     Questioned    Questioned
  Condition                            Costs        Costs        Costs           Costs        Costs
  IEP Student Utilization Ratio        $143,755         $489                      $28,246     $172,490
  Unqualified health care
  professionals                          24,679                                     4,829       29,508
  Claimed costs that should
  have been offset by other
  Federal revenue sources but
  were not                               12,263                                     2,400       14,663
  Inaccurate transportation costs
    Bus driver salaries and
    benefits                                699                                      137           836
    Fuel and maintenance                               9,740                        2,236       11,976
  Inaccurately coded RMTS
  responses                              25,968       30,143      $428,608        100,467      585,186
  School districts not
  participating in annual cost
  reconciliation                                                    38,545          8,310       46,855

  Interim claims and cost
  reconciliation payments
  claimed in incorrect quarters                                                     9,732        9,732
    Total                              $207,364      $40,372      $467,153      $156,357      $871,246

These errors totaling $871,246 (Federal share) in questioned costs occurred because the State
agency did not have adequate policies and procedures to monitor the SHS program and to ensure
that all costs claimed met Federal requirements.

INACCURACIES IDENTIFIED FOR TWO AUDITED SCHOOL DISTRICTS

Of the $1,759,194 (Federal share) in costs associated with SHS claimed for the Greeley and
Aurora school districts for the period July 1, 2008, through June 30, 2009, $247,736 (Federal
share) was unallowable for Federal reimbursement. Specifically, for the Greeley and Aurora
school districts, the State agency: (1) used an inadequately supported, and therefore incorrectly
calculated, IEP student utilization ratio, (2) claimed costs for unqualified health care
professionals, (3) claimed costs that should have been offset by other Federal revenue sources
but were not, (4) claimed inaccurate transportation costs, and (5) claimed costs based on
inaccurately coded RMTS responses.

Incorrectly Calculated Individualized Education Plan Student Utilization Ratio

The IEP ratio is used in the calculation of allowable direct costs submitted for Federal
reimbursement. Contrary to the provisions of Office of Management and Budget Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments (2 CFR pt. 225), Attachment A,


                                                      7

part (C)(1), which states that “[t]o be allowable under Federal awards, costs must meet the
following general criteria: …. (j) Be adequately documented,” the Greeley and Aurora school
districts did not document, and thus could not support, the data used to calculate the IEP ratio.
Specifically, the Greeley school district did not correctly identify the total number of its
Medicaid IEP students, and therefore did not properly calculate the costs it claimed for Federal
reimbursement. In addition, the Aurora school district included one student twice in its count of
the total number of Medicaid IEP students. Neither school district used complete and accurate
records to support its calculations. Using the school districts’ records, we recalculated the
correct numbers of Medicaid IEP students and determined that these two school districts
received unallowable Federal reimbursement totaling $144,244 ($143,755 for the Greeley school
district and $489 for the Aurora school district).

Unqualified Health Care Professionals

The Colorado State Plan Amendment, Attachment 3.1-A, section 4b.(I)A, defines a qualified
health care professional as “… an individual who is registered, certified or licensed by the
Department of Regulatory Agencies as a health care professional and who acts within the
profession’s scope of practice.” We reviewed the licenses for 133 individuals designated as
health care professionals in the Greeley and Aurora school districts. Although the Aurora school
district had documentation supporting that all 81 of its health care professionals were properly
registered, certified, or licensed, the Greeley school district did not have the proper supporting
documentation for 6 of the 52 individuals it had designated as health care professionals. The six
individuals were associated with the following categories of health care professionals:

   	 Audiologist: The State Plan Amendment states that a qualified audiologist will possess
      “… a current Certificate of Clinical Competence (CCC), certification from the American
      Speech-Language-Hearing Association (ASHA) or licensure from the Colorado
      Department of Regulatory Agencies.” We determined that one audiologist in the Greeley
      school district did not possess the CCC or licensure from the Colorado Department of
      Regulatory Agencies.

   	 Occupational Therapist: The State Plan Amendment states that a qualified occupational
      therapist will be “… certified by the National Board for Certification in Occupational
      Therapy....” We determined that one occupational therapist in the Greeley school district
      was not certified by the National Board for Certification in Occupational Therapy.

   	 Psychologist: The State Plan Amendment states that a qualified psychologist will have
      an education at “Doctoral level.” We determined that three psychologists in the Greeley
      school district did not have their doctorates.

   	 Speech Language Pathologist: The State Plan Amendment states that a qualified speech
      language pathologist will possess “… a current Certificate of Clinical Competence (CCC)
      certification from the American Speech-Language-Hearing Association (ASHA).” We
      determined that one speech language pathologist in the Greeley school district did not
      possess the CCC.



                                                8

The six individuals incorrectly classified as qualified health care professionals, did not have the
proper registration, certification, or license for our entire audit period. Accordingly, the Greeley
school district received unallowable Federal reimbursement totaling $24,679 for these eight
individuals.

Claimed Costs That Should Have Been Offset by Other Federal Revenue Sources
But Were Not

According to 2 CFR pt. 225, Attachment A, part (C)(1)(j), costs must “[b]e adequately
documented.” In addition, 2 CFR pt. 225, Attachment A, part (C)(3)(c), states in part that “[a]ny
cost allocable to a particular Federal award or cost objective under the principles provided for in
2 CFR part 225 may not be charged to other Federal awards to overcome fund deficiencies, to
avoid restrictions imposed by law or terms of the Federal awards, or for other reasons.”

The Greeley school district received unallowable Federal reimbursement totaling $12,263 in
personnel costs for employees whose salaries and benefits were partially funded by the U.S.
Department of Education. The school district should have allocated these personnel costs
appropriately between the various Federal programs that were funding those costs.

Inaccurate Transportation Costs

Contrary to 2 CFR pt. 225, Attachment A, part (C)(1)(j), which states that costs must “[b]e
adequately documented,” the Greeley and Aurora school districts provided inaccurate
transportation costs, which the Contractor then used when calculating the annual actual costs.
These two school districts could not provide documentation to support all of the transportation
expenditures reported to the Contractor. The combined effect of these errors, detailed in the
following paragraphs, was that the Greeley and Aurora school districts received unallowable
Federal reimbursement totaling $10,439.

Bus Driver Salaries and Benefits

The Greeley school district did not document, and thus could not fully support, some of the bus
driver salaries and benefits expenditures claimed. Specifically, the Greeley school district used
reports provided by its transportation department to claim expenditures that exceeded the
amounts supported by the school district’s accounting system. Using the adequately supported
amounts, we recalculated these expenditures and determined that the Greeley school district
received unallowable Federal reimbursement totaling $699.

Fuel and Maintenance

The Aurora school district did not document, and thus could not fully support, some of the fuel
and maintenance expenditures claimed. Specifically, the Aurora school district used reports
provided by its transportation department to claim expenditures that exceeded the amounts
supported by the school district’s vehicle tracking system. Using the adequately supported
amounts, we recalculated these expenditures and determined that the Aurora school district
received unallowable Federal reimbursement totaling $9,740.



                                                 9

Inaccurately Coded Random Moment Time Study Responses

According to 2 CFR pt. 225, Attachment A, part (C)(l)G), costs must "[b]e adequately
documented."

Because a statewide RMTS was calculated using responses from all participating Colorado
school districts, errors in the RMTS allocation methodology affected the amounts claimed on the
annual cost reports for all Colorado school districts. Therefore, we audited all RMTS responses
completed by employees of all 77 participating school districts in Colorado and determined that
the State agency's central coding process overlooked some of the responses associated with one
of the four questions within the RMTS process. Consequently, the RMTS responses were not
properly coded and were not always adequately documented so as to support the activities
performed. We used the audited responses to recalculate the claims for all districts.

Of the 9,000 RMTS responses that were completed by employees of all 77 participating school
districts in Colorado and that we reviewed, 188 were inaccurately coded and were subsequently
used in the statewide RMTS calculation. The most common error in these inaccurately coded
responses involved random moments that were coded to "IEP Direct Medical Services," a
Medicaid reimbursable code, even though in each case the response indicated that the student
receiving direct medicar services did not have an IEP. For example, one of the four questions
within the RMTS process asked, "[w]ere you working with a student during the sampled
moment?" The respondent answered "[y ]es, I was working with a student without an IEP." The
CMS-approved RMTS Implementation Guide requires that the IEP Direct Medical Services code
" ... be used to record time spent ... only if it is included as part of an IEP ... and documented in
the IEP." Therefore, this moment should have been coded to "Non-IEP Direct Medical
Services," because the student receiving direct medical services did not have an IEP.

We reclassified the 188 RMTS coding errors and recalculated the annual cost reports for the
participating school districts accordingly. Because of the RMTS coding errors, the Greeley and
Aurora school Districts received unallowable Federal reimbursement totaling $56,111 ($25,968
for the Greeley school district and $30,143 for the Aurora school district). 4

INACCURACIES IDENTIFIED FOR OTHER SCHOOL DISTRICTS

Inaccurately Coded Random Moment Time Study Responses

As mentioned above, errors in the RMTS allocation methodology affected the amounts claimed
on the annual cost reports for all participating Colorado school districts. We reclassified the 188
RMTS coding errors mentioned above and recalculated the annual costs reports for the other 75




4
  We discuss fmdings associated with inaccurately coded RMTS responses for all other participating school districts
in Colorado in the next section of this report.


                                                        10 

participating Colorado school districts accordingly. Because of the RMTS coding errors, the
other 75 participating Colorado school districts received unallowable Federal reimbursement
totaling $428,608.

School Districts Not Participating in Annual Cost Reconciliation

Contrary to the State Plan Amendment, Attachment 4.19-B, which states that “[e]ach provider
will complete an annual cost report for all school health services delivered,” two school districts
in Colorado submitted interim claims for Federal reimbursement but did not submit annual actual
costs for reconciliation. As a result, these two school districts received unallowable Federal
reimbursement totaling $38,545 ($38,160 for Prowers County School District #2 and $385 for
Bent County School District #2).

INACCURACIES IDENTIFIED FOR THE STATE AGENCY

State Agency Recovery Act Questioned Costs Associated With Other Findings

For the SHS program, the State agency used a CPE funding mechanism, through which each
participating school district certified the State agency’s share of the Medicaid expenditures. In
turn, the 77 participating school districts received Federal funding from the State agency equal to
the approved FMAP rate. Prior to implementation of the Recovery Act, the FMAP rate was 50
percent, and the State agency distributed all of those funds to the participating school districts.
The Recovery Act authorized the State agency to claim costs at the temporarily enhanced FMAP
rate for the recession adjustment period.5 However, because the State agency used a CPE
funding mechanism, CMS’s practices in effect at the time did not require that the difference
between (1) the FMAP rate prior to implementation of the Recovery Act and (2) the temporarily
enhanced FMAP rate be distributed to the participating school districts. The State agency
retained the additional funding it received from the temporarily enhanced FMAP rate provided
by the Recovery Act. Consequently, the State agency received unallowable Federal
reimbursement totaling $146,625 that was associated with the findings discussed earlier in this
report and retained at the State agency level. Table 2 on the following page itemizes these
findings and the corresponding amounts of Federal funds that were unallowably retained at the
State agency level.




5
    For this audit period, the temporarily enhanced FMAP rate varied between 58.78 percent and 61.59 percent.



                                                          11 

  Table 2: State Agency Recovery Act Questioned Costs Associated With Other Findings

                  IEP student utilization ratio                         $28,246
                  Unqualified health care professionals                   4,829
                  Claimed costs that should have been offset by           2,400
                  other Federal revenue sources but were not
                  Inaccurate transportation costs
                          Bus driver salaries and benefits                  137
                          Fuel and maintenance                            2,236
                  Inaccurately coded RMTS responses                     100,467
                  School districts not participating in annual
                  cost reconciliation                                     8,310
                          Total                                        $146,625

Interim Claims and Cost Reconciliation Payments Claimed in Incorrect Quarters

The CMS State Medicaid Manual states: “When reporting expenditures for Federal
reimbursement, apply the FMAP rate in effect at the time the expenditure was recorded in your
accounting system.” CMS central and regional office officials informed us that because
Colorado’s SHS program used CPEs for funding purposes, interim payments should have been
claimed on the CMS-64 report in the quarter in which the State agency made each interim
payment to a particular school district. By contrast, cost reconciliation payments should have
been claimed on the CMS-64 report in the quarter in which the service was provided. Contrary
to these guidelines, the State agency did not apply the FMAP rate in effect at the time the State
agency processed the interim payments. In addition, the cost reconciliation payments were not
claimed in the quarter in which the service was provided, resulting in the State agency claiming
costs using an incorrect FMAP rate. As a result of these errors, the State agency received
unallowable Federal reimbursement totaling $9,732.

SCHOOL HEALTH SERVICES CLAIMING PROCESS
NOT ADEQUATELY MONITORED

The State agency did not have adequate policies and procedures to monitor the SHS program and
to ensure that all costs claimed met Federal requirements. The State agency and the Contractor
had quality review processes in place; however, these processes were insufficient to ensure that
all costs claimed met Federal requirements.

EFFECT OF UNALLOWABLE CLAIMS PAID

Because the State agency did not correctly calculate and claim only allowable costs for the SHS
program, the school districts and the State agency received unallowable Federal reimbursement
totaling $871,246 (Federal share) in questioned costs.

The two school districts we reviewed received a total of $247,736 (Federal share) for
unallowable costs. We recalculated the annual cost reports using the corrected expenditures, IEP



                                                12 

ratios, and statewide RMTS percentages. The Greeley school district was reimbursed $207,364
(Federal share) and the Aurora school district was reimbursed $40,372 (Federal share) for
unallowable costs.

In addition, errors identified during our review of the audited (Greeley and Aurora) school
districts impacted not only these school districts, but also other participating Colorado school
districts and the State agency. As a result of these errors, other participating Colorado school
districts received a total of $467,153 (Federal share) and the State agency received a total of
$156,357 (Federal share) in unallowable Medicaid payments.

On the basis of the findings discussed in this report, we are questioning a total of $871,246
(Federal share) in unallowable SHS expenditures.

RECOMMENDATIONS

We recommend that the State agency:

   	 refund $871,246 ($207,364 for the Greeley school district, $40,372 for the Aurora school
      district, $467,153 for all other participating school districts, and $156,357 for the State
      agency) to the Federal Government for unallowable SHS expenditures; and

   	 strengthen policies and procedures to ensure that SHS expenditures are reasonable and
      accurate, and are properly claimed and documented, by reviewing RMTS responses,
      direct medical costs, other costs, health care professionals’ qualifications, and all
      calculations used in the annual cost reconciliation for a sample of school districts each
      year.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our first
recommendation and agreed with our second recommendation. The State agency described the
strengthened policies and procedures that it said it has developed and implemented. The State
agency said that our review did not take those program improvements into account and added
that it had already addressed many of the issues we had identified in our review.

A summary of the State agency’s specific points of disagreement and our response follows.
Except as noted below, nothing in the State agency’s comments caused us to change our findings
or the associated questioned costs that we convey in our first recommendation. While we note
the information the State agency provided regarding its strengthened policies and procedures and
its enhanced training, and credit the State agency accordingly, we also note that our audit period
encompassed costs claimed for SHS provided during the period July 1, 2008, through
June 30, 2009. For half of the findings in this report, the State agency’s comments provided no
information to support its disagreement other than descriptions of additional training, policy
guidance, and program reviews. These measures, which enhance the State agency’s agreement
with our second recommendation, are commendable but do not invalidate our findings or the




                                                13 

questioned costs (other than the adjustments to findings related to the unqualified health care
professionals and the RMTS responses) that form the basis of our first recommendation.

The State agency’s comments appear in their entirety as the Appendix.

Incorrectly Calculated Individualized Education Plan Student Utilization
Ratio for the Two Audited School Districts

Auditee Comments

The State agency disagreed with this finding and said that it began providing annual training to
school districts, beginning in August 2008, that specifically addressed the requirement that all
supporting documentation for student counts (i.e., the number of Medicaid IEP students)
reported on the annual cost reports reconcile to school district records and be kept on file at the
school district level for a minimum of 6 years. The State agency added that beginning in the
autumn of 2010 it implemented a process for conducting program reviews and cost report audits.

Office of Inspector General Response

The State agency’s comments regarding this finding provided no information to support its
disagreement other than descriptions of additional training, policy guidance, and program
reviews. Specifically, the State agency did not address our finding that both school districts did
not use complete and accurate information to support the calculations. Accordingly, we maintain
that this finding and the associated questioned costs remain valid.

Unqualified Health Care Professionals in the Two Audited School Districts

Auditee Comments

The State agency disagreed with this finding and said that after receiving our draft report it
located and provided to us additional documentation on licensure and certification of three health
care professionals. (The State agency subsequently clarified that it had provided documentation
for only two health care professionals.) The State agency also said that it began providing
annual training to school districts, beginning in August 2008, that specifically addressed the
requirement for valid and current licensure for all school health service providers. The State
agency added that beginning in the autumn of 2010 it implemented a process for conducting
program reviews and cost report audits.

Office of Inspector General Response

After reviewing the State agency’s comments and the additional documentation it provided
regarding two of the eight health care professionals whom we had identified as unqualified in our
draft report, we accepted that documentation and adjusted this finding, the associated questioned
costs, and the related recommendation accordingly. Although the State agency indicated that it
disagreed with all of the questioned costs associated with this finding, it provided no additional




                                                14 

documentation or information regarding the other six unqualified health care professionals. We
are therefore continuing to question the costs associated with those six individuals.

Claimed Costs in the Two Audited School Districts That Should Have Been
Offset by Other Federal Revenue Sources But Were Not

Auditee Comments

The State agency disagreed with this finding and said that it began providing annual training to
school districts, beginning in August 2008, that specifically addressed the requirement that all
Federal awards be removed from cost reporting forms. The State agency added that beginning in
the autumn of 2010 it implemented a process for conducting program reviews and cost report
audits.

Office of Inspector General Response

The State agency’s comments regarding this finding provided no information to support its
disagreement other than descriptions of additional training, policy guidance, and program
reviews. Accordingly, we maintain that this finding and the associated questioned costs remain
valid.

Inaccurate Transportation Costs in the Two Audited School Districts

Auditee Comments

The State agency disagreed with both aspects of this finding: bus driver salaries and benefits and
fuel and maintenance costs. The State agency said that it began providing annual training to
school districts, beginning in August 2008, that specifically addressed the requirement that all
supporting documentation for costs reported on the annual cost reports reconcile to school
district financial systems and be kept on file at the school district level for a minimum of 6 years.
The State agency added that beginning in the autumn of 2010 it implemented a process for
conducting program reviews and cost report audits.

Office of Inspector General Response

The State agency’s comments regarding this finding provided no information to support its
disagreement other than descriptions of additional training, policy guidance, and program
reviews. Accordingly, we maintain that this finding and the associated questioned costs remain
valid.




                                                 15 

Inaccurately Coded Random Moment Time Study Responses in the Two
Audited School Districts and for Other Participating Colorado School Districts

Auditee Comments

The State agency disagreed with this finding and said that 116 out of the 206 RMTS responses
that we had identified as inaccurately coded had in fact been coded in a manner consistent with
CMS’s guidance. Specifically:

   	 The State agency took note of our report’s comment that the most common error (55 of
      the 116, according to the State agency) in these inaccurately coded responses involved
      random moments that were coded to “IEP Direct Medical Services,” a Medicaid
      reimbursable code, even though in each case the response indicated that the student
      receiving direct medical services did not have an IEP. The State agency said that it was
      using an RMTS coding instructions approved by CMS and that random moments were
      coded accordingly. The State agency also said that there is no language in the RMTS
      coding instructions that states that a student must have an IEP or Individualized Family
      Service Plan in order for the random moment to be coded to “IEP Direct Medical
      Services.”

   	 The State agency also said that for 27 of the 116 RMTS responses that we had identified
      as inaccurately coded, there was insufficient detail in the responses to justify our
      reclassification of them: “The coder made the best decision possible given the coder
      instructions and the information provided by the sampled provider.”

   	 Further, the State agency said that 18 of the 116 RMTS responses were related to annual
      or triennial IEP reviews and, according to the RMTS coding instructions, should have
      been coded to non-allowable codes (i.e., non-Medicaid activities) rather than being
      reclassified (as we had done, during our fieldwork) to case management codes, which are
      allowable Medicaid codes.

   	 Finally, the State agency said that it disagreed with our reclassification of 16 other RMTS
      responses that did not fall into any of the three categories discussed above.

The State agency additionally commented, with respect to all of our findings related to RMTS
responses, that CMS approved both the time study used during the 2008 – 2009 school year (our
audit period) and subsequent changes that the State agency made to its own time study
implementation guidelines to school districts. The State agency added that it believes that our
findings “… have been resolved by the updated time study implementation guide, coding
structure, and coding instructions…. The [State agency] believes that this process should ensure
that coding errors do not take place for future time study periods.”

Office of Inspector General Response

Although the State agency indicated that it disagreed with all of the questioned costs associated
with this finding, it provided no additional documentation or information regarding 90 of the 206


                                               16 

RMTS responses that we had identified as inaccurately coded and for which we continue to
question the associated costs. With respect to the 116 RMTS responses for which the State
agency identified specific points of disagreement, we make the following points:

   	 For the 55 RMTS responses that were coded to “IEP Direct Medical Services, nothing in
      the State agency’s comments caused us to change this finding or the associated
      questioned costs. The State agency is incorrect in stating that CMS approved the RMTS
      coding manual as that document is internal to the State agency and CMS does not
      approve internal documents. Subsequent to its response, the State agency provided
      CMS’s comments on the State Plan Amendment as it related to the SHS program. We
      note that in its comments, CMS told the State agency that the “Direct Medical Services
      activity code must be sub-divided into two separate codes: IEP Related Direct Medical
      Services and Non-IEP Related Direct Medical Services.” The State agency responded
      that it would separate the two codes and in fact, the State agency’s internal RMTS coding
      instructions provide different codes for direct services covered as an IEP service and
      direct medical services not covered as an IEP service. These instructions indicate that
      direct medical services must differentiate services provided to a student with an IEP from
      those provided to a student without an IEP.

   	 For the 27 RMTS responses that, according to the State agency, had insufficient detail as
      to justify our reclassification, we note that because the responses were vaguely and
      ambiguously worded, the costs claimed on the basis of those responses were not
      adequately documented pursuant to 2 CFR pt. 225, Attachment A, part (C)(1)(j).
      Moreover, the documentation for these claimed costs did not conform to the guidelines
      contained in the CMS-approved RMTS Implementation Guide, which states that
      “documentation of sampled moments must be sufficient to provide answers to four
      questions needed for accurate coding.” An insufficient level of detail or clarity in an
      RMTS response is to be regarded, not as the basis to accept the costs claimed on the basis
      of that response, but as the basis to question those costs.

   	 For the 18 RMTS responses that were related to annual or triennial IEP reviews, we agree
      with the State agency’s comments and have adjusted the finding to show that 188 RMTS
      responses were inaccurately coded and were subsequently used in the statewide RMTS
      calculation. We also adjusted the questioned costs and the recommendation. Because we
      changed the RMTS codes from services which were allowable for Medicaid
      reimbursement back to the original coding in which the services were not allowable for
      Medicaid reimbursement—the course of action that the State agency requested in its
      comments—the questioned costs increased from those costs shown in the draft report.
      These increases appear in the two audited school districts, in other participating school
      districts, and the State agency.

   	 For the other 16 RMTS responses, the State agency provided no specific information that
      would allow us to re-evaluate our reclassifications or even to identify which particular
      responses it had in mind.
        




                                              17 

The State agency additionally commented on CMS approval of the time study and the
subsequent changes that the State agency made to its time study implementation guidelines, and
stated that the issues we identified have now been resolved and that coding errors should not take
place in future time study periods. However, the fact that the State agency has modified its
program, with CMS approval, and has instituted the policy and procedural changes discussed
earlier, does not eliminate or lessen the fact of the findings, and their causes, that were in
existence during our audit period and that we identified during our review.

In light of these points, we maintain that all of our findings related to the 188 inaccurately coded
RMTS responses, as well as the associated questioned costs, remain valid.

Other Colorado School Districts Not Participating in Annual Cost Reconciliation

Auditee Comments

The State agency disagreed with this finding and said that the interim payments (by Prowers
County School District #2 and Bent County School District #2) had been made in a timely
manner and that it reserved the right to reopen the cost reports for reconciliation.

Office of Inspector General Response

Nothing in the State agency’s comments caused us to change this finding or the associated
questioned costs. Neither of these school districts completed or submitted an annual cost report,
which includes a certification of funds statement certifying the provider’s actual, incurred
costs/expenditures. Moreover, the State agency did not complete the cost reconciliation process.
According to the State Plan Amendment, Attachment 4.19-B, section H, the cost reconciliation
process must be completed within 24 months of the end of the reporting period covered by the
State agency’s annual SHS cost report. The State agency, in its comments, did not provide
support that cost reports for the two school districts exist; in the absence of those cost reports, the
State agency would be unable to reopen them for reconciliation. Therefore, we maintain that this
finding and the associated questioned costs remain valid.

Interim Claims and Cost Reconciliation Payments Claimed by the State Agency
in Incorrect Quarters

Auditee Comments

With respect to our finding that the State agency made interim claims and claimed cost
reconciliation payments in incorrect quarters, the State agency said that we based this finding on
an examination of claims data and payment data in the State agency’s Medicaid Management
Information System (MMIS), instead of relying on the Colorado Financial Reporting System
(COFRS), which is the State’s accounting system. The State agency added that the costs
reported on the CMS-64 were based on the paid date shown in COFRS, which is the date that the
State actually incurred the expenditure.




                                                  18 

With respect to our finding that the State agency did not apply the FMAP rate in effect at the
time the State agency processed the interim payments, the State agency said that for reporting
purposes, it divides the annual cost reconciliation payment into four quarters. The State agency
added that it would be burdensome and costly to allocate the cost reconciliation in the quarter in
which the service was provided.

Office of Inspector General Response

Nothing in the State agency’s comments caused us to change this finding or the associated
questioned costs. With respect to the State agency’s comments on our finding that it made
interim claims and claimed cost reconciliation payments in incorrect quarters, we analyzed both
the payment data from the COFRS and the claim data from the MMIS in developing this finding.
Moreover, we understand that the State agency included costs on the CMS-64 based on the paid
date shown in COFRS, which is the date the State agency incurred the interim payment
expenditure. However, the State agency used funds provided by the participating school districts
to supply the non-Federal share of the cost reconciliation payments. Therefore, when reporting
expenditures for Federal reimbursement associated with the cost reconciliation settlement, the
State agency was required to apply the FMAP rate in effect at the time the school district
recorded the expenditure (i.e., at the time the service was provided). The State agency’s method
of dividing the annual cost reconciliation payment into four quarters did not ensure that the cost
reconciliation payments were recorded in the quarter in which the services were provided as
required. We maintain that our finding that the State agency claimed costs using an incorrect
FMAP rate remains valid.

                                       OTHER MATTER

Interviews with Aurora and Greeley school district employees indicated a significant level of
confusion and uncertainty regarding the cost category of “other direct costs.” State agency
guidance explains what costs may qualify as other direct costs, but it may not provide
sufficiently detailed guidance as to how school districts should identify and claim those costs.
As a result, other direct costs claimed by these two school districts may not have conformed to
the requirements of the State Plan Amendment.

The State Plan Amendment, Attachment 4.19-B, states: “Other direct costs include costs directly
related to the approved direct services personnel for the delivery of medical services, such as
medically-related purchased services, supplies and materials.”

During our audit period, the two audited school districts claimed $158,670 ($142,547 for the
Aurora school district and $16,123 for the Greeley school district) in other direct costs. These
two school districts used different methodologies to identify and claim these costs:

   	 The Greeley school district used a methodology whereby it reduced certain designated
      other direct costs by 25 percent before claiming reimbursement for those costs. School
      district officials told us that they took this step in order to reduce the potential for
      overclaiming. We did no sampling or testing of these costs for the Greeley school
      district.



                                                19 

   	 The Aurora school district claimed other direct costs that may not have qualified as such
      pursuant to the State Plan Amendment. We judgmentally selected 10 line items and
      requested detailed supporting documentation from the Aurora school district. Of the 10
      lines reviewed, 8 could not be directly tied to a direct medical service and may therefore
      not have qualified as other direct costs. The items claimed included cell phone charges,
      travel expenses, various office supplies, dues for a professional organization, conference
      attendance, copy paper, and printing. The two other line items may have been related to
      personal care services and included shampoo, swimming, crafts, and food.

Because our review focused on direct medical service costs including specialized transportation
costs, we were not able to review other direct costs in detail. We are, however, providing this
information as an Other Matter because it may be worthwhile for the State agency to study this
matter at its own level and thereafter provide additional guidance and training associated with the
identification and claiming of other direct costs.




                                                20 

APPENDIX 

                                                                                                                                                       Page 1 of 12



                                   APPENDIX: AUDITEE COMMENTS 





                       COLORADO DEPARTMENT OF HEALTH CARE POUCY & FINANCING
                       1570 Grant street< Denver, co 80203-1818 • (303)866-2993 • (303) 1166-4411 Fix. (303) 866-3883 TTt'
                       :John W. Hldclnloaper, Governor • SUsln E. BIICI MBA, BSN, RN, Executive Dlrldar



December 5, 2011

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services
Region VII
601 E 12111 St
Kansas City, MO 64106

RE: Report Number A-07-11-04185

Dear Mr. Cogley:

Enclosed is the Department of Health Care Policy and Financing's (Department's) response to the Review
ofColorado Direct Medical and Specialized Transportation Costs for the Medicaid School Health Services
Program for State Fiscal Year 2008-09 conducted by the Office of Inspector General (OIG). The audit
report includes a recommendation that $748,537 be tefunded to the federal government. The Department
disagrees with this recommendation and notes that federal matching funds were claimed for allowable
Medicaid services under the approved State Plan.

The Department worked tirelessly and in good faith with the Centers for Medicare and Medicaid Services
(CMS) between July 26, 2005, when State Plan Amendment (SPA) 05-006 was submitted for CMS review,
and July 23, 2008, when the SPA was approved. to design a program that is compliant with federal
regulations and includes a process for reconciling reimbursement to school district costs.

Since the approval of SPA 05-006 on July 23, 2008, the Department has developed and strengthened
policies and procedures to ensure that expenditures are reasonable, accurate, properly claimed, and
documented. The OIG's review does not capture the substantial improvements that have occurred in the
past three years, and many of the identified issues have already been addressed by the Department through
training sessions, instruction manuals, and program and financial review$.




~
Susan E. Birch, MBA, BSN, RN
Executive Director

Enclosure


    "The mkllon of lhe Dopa""""' of HHIIh Ca"' Polley lr fluoM:Ina Is lo Improve acceu 1o cOII-ethctM1 quollly heollh c:are ..me.. for   Coletoda,.•
                                                                colorodo.pw/hcpf
                                                          , Page 2 of 12




Response to Review of Colorado Direct Medical Service and 

 Specialized Transportation Costs for the Medicaid School 

  Health Services Program for State Fiscal Year 2008-09 





Office of Inspector General Report Number A-07-11-04185
                                                                                                      Page 3 of 12




                    Department ofHealth Care Policy and Financing

Recommendation 1: Refund $748,537 ($205,721 for the Weld CoWlty School District #6,
$26,453 for the Adams Arapahoe School District #28J, $381,254 for all other school districts,
and $135,109 for the State Agency) to the Federal Government for Wtallowable SHS
expenditures.

   Department Rqponse: The Department of Health Care Policy and Financing (Department)
   disagrees. The Department notes that federal matching funds were claimed for allowable
   Medicaid services Wlder the approved State Plan. Many of the issues identified by the Office
   of Inspector General (010) in its report have already been addressed by the Department and
   participating school districts through training sessions and materials, instruction manuals, and
   program reviews.

   The Department received approval for the school health services (SHS) program State Plan
   Amendment (SPA) 05·006, which included a process for reconciling reimbursement to
   school district costs, on July 23, 2008. The Department, in conjWtction with the Centers for
   Medicare and Medicaid Services (CMS), worked tirelessly and in good faith between July
   26, 2005, when the original SPA was submitted for CMS review, and July 23, 2()08, when it
   was approved, to design a SHS program that is compliant with federal regulations. Only
   after July 23, 2008 could the Department begin to implement the newly designed program.
   The OIG audit began in July 2010 and the time period for the review was Fiscal Year (FY)
   2008-09 (July 1, 2008 through JWte 30, 2009). The year Wlder review was the first year of
   the new SHS program.

   Since the approval of the SHS program on July 23, 2008, the Department has developed
   policies and procedures to ensure that SliS expenditures are reasonable, accurate, properly
   claimed, and documented. These policies and procedures have been strengthened over the
   past three years. The Department holds IIIijlual trainings, quarterly stakeholder meetings,
   perfonns desk and on-site program and financial reviews of cost reports and Random
   Moment Time Study {RMTS) rosters, publishes a comprehensive program manual and
   quarterly newsletters, and provides additional web-ex or one-on-one training, as needed and
   requested by providers. The OIG's review does not capture these substantial improvements
   in processes and procedures that have occurred.

   There are nine different issues identified in the OIG's report that cumulate into the amoWtt
   calculated in Recommendation 1. The Department addresses each of the nine issues
   individually, below.


       Issue 1: 	 Incorrectly Calculated Individualized Education Plan Student Utilization
                  Ratio

       Amounts: 	     Weld CoWlty School District #6- $143,755 

                      Adams Arapahoe School District #281 - $489 

                      State - $28,246 

                      Total- $172,490 



Report Number A-07-11-04185               DecemberS, 2011 	                          Page 1 oflO
                                                                                                      Page 4 of 12




                   Department of Health Care Policy and Financing

      Department Response: The Department disa 'CCS and notes that the federal matching
      funds claimed were for Medicaid allowable services and that processes and procedures
      have been strengthened.

      Training provided by the Department to school districts annually beginning in August
      2008 specifically addressed the requirement that all supporting docwnentation for student
      counts reported on the annual cost report reconcile to district. lists and be kept on file at
      the school district for a minimwn of 6 years. Guidance regarding the requirements to
      maintain documentation used to complete the annual cost report is also available to
      school districts in the Department's SHS Program Manual.

      In addition, the Department has implemented a process for conducting program reviews
      and cost report audits that will identity any issues related to inconsistencies with
      supporting docwnentation or missing supporting docwnentation. Olie of the specific
      areas of review is the docwnentation to support the Individualized Education Program
      (IEP) Student Utilization Ratio. Such program reviews began in Fall201 0.


      Issue 1:       Unquallfled Health Care Professionals

      Amounts:       Weld County School District #6 - $28,240
                     State- $S,S26
                     Total- $33,766

      Deoartment Response: The Departnlent disagrees. Docwnentation for three additional
      Speech Language Pathologists was located and sent to the OlG on October 26, 2011 after
      the draft report was received. Moreover, the federal matching funds claimed were for
      Medicaid allowable services and processes and procedures have been strengthened.

      Training provided by the Departnlent to school districts annually beginning in August
      2008 specifically addressed the requirement of valid and current licensure for all school
      health service providers. Guidance regarding the requirements for qualified providers is
      also available to school districts in the Department's SHS Program Manual.

      Additionally, the Department has implemented a process for conducting program reviews
      and cost report audits that will identify any issues related to inconsistencies with
      supporting documentation or missing supporting docwnentation. One of the specific
      areas of review is the licensure and qualification docwnentation for providers on the
      Random Moment Time Study (RMTS) roster. Such program reviews began in Fall 2010.




Report Nwnber A-07-11-04185              DecemberS, 2011                              Page2 oflO
                                                                                                   Page 5 of 12




                   Department of Health Care Policy and Financing

      Issue 3:       Claimed Costs That Should Have Been Offset by Other Federal
                     Revenue Sourees but Were Not

      Amounts:       Weld County School District #6 - $12,263
                     State - $2,400
                     Total- $14,663

      Department Remonse: The Department disagrees and notes that the federal matching
      funds claimed were for Medicaid allowable services and that processes and procedures
      have been strengthened.

      Training provided by the Department to school districts annually beginning in August
      2008 specifically addressed the requirement that all federal awards be removed from cost
      reporting forms. Guidance regarding the federal award requirements is also available to
      school districts in the Department's SHS Program Manual.

      Additionally, the Department has implemented a process for conducting program reviews
      and cost report audits that will identify any issues related to costs allocable to federal
      awards before the Department submits a request for reimbursement from the federal
      government. One area of specific review is financial records for a sample of salary and
      benefit expenses included on the cost report. Such program reviews began in Fall 2010.


      Issue 4: 	     Inaccurate Transportation Costs - Bus Driver Salaries and Benefits

      Amounts: 	     Weld County School District #6 - $699
                     State- $137
                     Total- $836

      Department Resoonse: The Department disagrees and notes that the federal matching
      funds claimed were for Medicaid allowable services and that processes and procedures
      have been strengthened.

      Training provided by the Department to school districts annually beginning in August
      2008 specifically addressed the requirement that all supporting documentation for costs
      reported on the annual cost report reconcile to district financial systems and be kept on
      file at the school district for a minimum of 6 years. Guidance regarding the requirements
      to maintain documentation used to complete the annual cost report is also available to
      school districts in the Department's SHS Program Manual.

      Additionally, the Department has implemented a process for conducting program reviews
      and cost report audits that will identify any issues related to inconsistencies with
      supporting documentation or missing supporting documentation. One area of specific
      review is financial records for a sample of salary and benefit expenses included on the
      cost report. Such program reviews began in Fall2010.


Report Number A-07-11-04185             December 5, 2011 	                         Page3 oflO
                                                                                                   Page 6 of 12




                   Department ofHealth Care Policy and Financing


      Issue 5:       lnaceurate Transportation Costs- Fuel and Maintenance

      Ammmts:        Adams Arapahoe School District #28J- $9,740
                     State • $2,236
                     Total· $11,976

      De,partment Remonse: The Department disagrees and notes that the federal matching
      funds claimed were for Medicaid allowable services and that processes and procedures
      have been strengthened.

      Training provided by the Department to school districts annually beginujng in August
      2008 specifically addressed the requirement that all supporting documentation for costs
      reported on the annual cost report reconcile to district financial systems and be kept on
      file at the school district for a minimum of 6 years. Guidance regarding the requirements
      to maintain documentation used to complete the annual cost report is also available to
      school districts in the Department's SHS Program Manual.

      Additionally, the Department has implemented a process for conducting program reviews
      and cost report audits that will identify arty issues related to inconsistencies with
      supporting documentation or missing supporting documentation. One area of specific
      review is financial records for a sample of transportation expenses included on the cost
      report. Such program reviews began in Fall 2010.


      Issue 6: 	     Inaccurately Coded Random Moment Time Study Responses

      Amounts: 	     Greely- $20,764
                     Adams Arapahoe School District #28J- $16,224
                     Other Districts • $342,709
                     State - $78,522
                     Total - $458,219

      Department Response: The Department disagrees. The Department was utilizing a
      RMTS coding manual approved by CMS and moments were coded accordingly.
      Summarized responses are below for each category of coding issue identified by OIG.

      Document Reference: Colorado School Health Services Program Random Moment Time
      Study Coder Instructions FY2008, dated May 18, 2008.

      Issue A: Use ofthe answer to RMTS Question 4 to code direct service moments

      On page 1 of the above referenced document, there is a list of steps that the coder should
      have followed in order to code RMTS moments accurately. The document states:




Report Number A-07-11-04185             December 5, 2011 	                         Page4of10
                                                                                                   Page 7 of 12




                  Department ofHealth Care Policy and Financing

         "When coding there are a few key decision points that must be considered:

             1. 	 If the answer to Question I is 'no,' the coder will disregard the other
                  questions.

             2. 	 If the answer to Question I .is 'Yes, I was working' then the coder must
                  determine which code applied based on Questions 2 and 3.

             3. 	 The answer to Question 4 should only be considered when deciding between
                  Targeted Case Management and case management for the Non-Target
                  Population."

      The coder instructions clearly state that the answer to Question 4 should only be used
      when deciding between coding for case management for the targeted or non-targeted
      population. However, as stated in the OlO's report, the most common error identified in
      the 206 moments that were subsequently re-categorized by the OIG related to the use of
      Question 4 to code direct service moments. The response to Question 4 was used by the
      OIG to change the coding of direct service moments when the response indicated the
      student receiving direct medical servi'* did .not have an IEP.

      There is no language in the coder instructions that states that a student must have an 1EP
      or Individualized Family Service Plan (IFSP) in order to code the moment as I2IO (IEP
      Direct Medical Services). According to page 4 of the coder instructions, if the moment
      response refers to time spent administering/monitoring medication, it should be coded as
      I210 ".,.only if it is included as part of an IEP or IFSP and docwncnted in the IEP or
      IFSP." There is no requirement of an IEP or IFSP for responses related to activities other
      than administering/monitoring medication.

      Given that the response to Question 4 should not be used to code direct service moments
      and that there is no language in the coder instructions that requirement of an IEP or IFSP
      applies to non-medication administration/monitoring activities, the OIG's findings related
      to this point are incorrect.

      Total Moments Impacted: 55

      Issue B: Insufficient Detail

      There are a nwnber of moments for which the original coding decision was changed by
      the 010. However, there is insufficient detail included in the moment responses to
      justifY the change in coding. For every coding decision, the coder utilized the coder
      instruction document referenced above. The coder made the best decision possible given
      the coder instructions and the information provided by the sampled provider.

      Total Moments Impacted: 27



Report Number A-07-II-04I85             December 5, 201I 	                         PageS oflO
                                                                                                   Page 8 of 12




                  Department of Health Care Policy and Financing

      Issue C: AnnuaVTriennialReview

      Beginning on page S of the above referenced docmnent is a description of what qualified
      as case management, whether for the targeted population or the non-targeted population.
      The description of activities that qualifY as case management continues to page 7 of the
      docmnent. Then, there is a ~ist of activities that are not allowable as case managentent:

             "SHS Program Targeted Case Management activities do not include:

             Activities related to the development, implementation, annual review and triennial
             review of IEP documents that are the iriherent responsibility of the Colorado
             Department of Eduaation ... "

      There were a nmnber of moments that were related to annual and/or triennial IEP reviews
      that were changed by the OIG to allowable case management codes. According to the
      coder instructions, those moments a~nnot be coded to case management. Instead, the
      moments were correctly originally coded to non-allowable codes•

      Total Moments Impacted: 18

      There are also 16 other moments that the Department disagrees with the coding change
      made by the OIG. Those moments do not fall into the three broad aategories above. In
      total, there are 116 moments out of the 206 moments reclassified by OIG that the
      Department disagrees with the OIG in terms of coding in accordance with the coder
      instructions.

      Additiona/Conunen~

      The time study used during School Year 2008 - 09 (the time period under review) was
      approved by CMS on August 18, 2008.

      Subsequently, in the summer of 2009, the Department chose to implement school-based
      Medicaid Administrative Claiming and updated the time study implementation guide and
      coding structure. The time study docmnentation was approved by CMS on June 23,2010
      (effective October I, 2009). As a result of the changes to the coding structure ofthe time
      study, the coder instructions also changed. The Department believes that the issues
      identified by the OlG in its report have been resolved by the updated time study
      implementation guide, coding structure. and coder instructions. In accordance with the
      approved time study implementation guide:

             ''The State's contractor. randomly selects a 5% sample of coded responses which
             are submitted to HCPF each quarter for validation. The validation consists of
             reviewing the participant responses and the corresponding code assigned by the
             contractor to determine if the code was accurate. A representative of HCPF
             separately reviews the sub-sample of responses and coding to identify any
             disagreements with the coding staff. If a disagreement occurs HCPF and the

Report Nmnber A-07-11-04185             December 5, 2011                           Page6ofl0
                                                                                                   Page 9 of 12




                   Department ofHealth Care Policy and Financing

             coding staff discuss the discrepancies. After the discussion on coding, coding
             instructions would be modified to document those coding decisions so that they
             can be consistently applied in future quarters."

      The Department believes that this process ensures that the coding instructions are adhered
      to by the Department's contractor. The Department also believes that this process should
      ensure that coding errors do not take place for future time study periods.


      Issue 7:       School Districts Not Participating in Annual Cost Reconciliation

      Amounts:       Prowers County School District #2- $38,160
                     Bent County School District # 2 - $385
                     State - $8,310
                     Total - $46,855

      Dtmartment Resoonse: The Department disagrees. These payments were for allowable
      services under the approved State Plan. Moreover, as interim payments were made in a
      timely fashion, the Department reserves the right to re-open the cost reports for these
      providers and perform the cost reconciliation.


      IssueS: 	      IDterim Claims and Cosu Reeonc:lllation Payments Claimed in
                     Incorrect Quarten

      Amounts: 	     State - $9,732
                     Total- $9,732

      Deoartment Response: The Department disagrees. As noted in the OIO's audit findings,
      the CMS State Medicaid Manual states: "When reporting expenditures for Federal
      reimbursement, apply the FMAP .rate in effect at the time the expenditure was recorded
      tn your accounting system!' (Emphasis added.)

      In this issue, the 010 asserts that two processes were incorrect. First, 010 asserts that
      the interim claims paid through the Medicaid Management Information System (MMIS)
      incorrectly drew $7,859 in federal funds. 010 examined MMIS claims data and used the
      MMIS paid date to determine what Federal Medical Assistance Percentage (FMAP)
      should have been drawn. However, the Department's reporting on the CMS-64 since it
      shifted to a cash basis on October 1, 2008 has been based upon the paid date in the
      Colorado Financial Reporting System (COFRS). COFRS is the state's accounting
      system, not the MMIS. The MMIS paid date is programmed to equal the Tuesday
      following the MMIS financial cycle ending on Friday. The paid date in COFRS is the
      date that the state incurred the expenditure.

      Secondly, the 010 asserts that $1,873 in federal funds drawn was drawn incorrectly when
      the FY 2008-09 cost settlement payments were made. Cost settlement payments occur


Report Nwnber A-07-11-04185             December 5, 2011 	                         Page7of10
                                                                                                Page 10 of 12




                   Department ofHealth Care Policy and Financing

       when actual costs are greater than interim payments. The Department cost settles for the 

       previou.s fiscal year, approximately 9 months after the fiscal year ends. For purposes of 

       calculating the FMAP match on the CMS-64, the Department divides the annual cost 

       reconciliation payment into four quarters for reporting purposes. The 010 asserts that the 

       Department should divide the cost reconciliation amounts across quarters based on claims 

       volume to determine the enhanced match. The Department disagrees. Additionally, 

       allocating the cost reconciliation as the 010 suggests would be administratively 

       burdensome on the Department and would increase the Department's personnel costs. 



       Issue 9:       Other Matter- Other Direct Costs

       Amounts:       None

       Department Response: Agree. During the SPA approval process, the Department 

       attempted to add a list of allowable other direct costs to the SPA in order to avoid any 

       issues related to vague instruction. However, CMS asked the Department to remove any 

       list of allowable items under other direct costs from the SPA and the Department 

       complied. The Department is willing to discuss this further with CMS in order to 

       establish clear instructions for school districts. 



Recommendation 2: Strengthen policies IUld procedures to ensure that SHS expenditures are
reasonable and accurate, and are properly claimed and documented, by reviewing RMfS
response, direct medical costs, other costs, health care professionals' qualifications, and all
calculations used in the annual cost reconciliation for a sample of school districts each year.

   Dtmartment Response: Agree and implemented. Since the approval of the SHS program on 

   July 23, 2008, the Department has developed policies and procedures to ensure that SHS 

   expenditures are reasonable, accurate, properly claimed, and documented. These policies 

   and procedures have been strengthened over the past three years. The Department holds 

   annual trainings, quarterly stakeholder meetings, performs desk and on-site program and 

   financial reviews of cost reports and RMTS rosters, publishes a comprehensive program 

   manual and quarterly newsletters, and provides additional web-ex or one-on-one training, as 

   needed and requested by providers. 


   As outlined in the SHS Program Manual, the Department conducts comprehensive review$ of 

   the SHS program to ensure compliance with SHS rules and regulations and accurate 

   reporting of financial costs and claims submissions. 


   These program reviews contain three components:

   RMTS Reviews
   Annual quality assurance reviews are performed on all RMTS rosters to ensure the cost pool 

   lists (staff rosters) are complete and that each staff included in those rosters is in the 

   appropriate staff cost pool. 


ReportNumber A-07-ll-04185               December 5, 2011                           Page 8 oflO
                                                                                                Page 11 of 12




                   Department of Health Care Policy and Financing


   The Department also performs an annual targeted review of at least 500/o of the RMTS staff · 

   cost pool lists. Districts selected for a targeted review must provide evidence of staff 

   qualifications in the form of current certificates and licensures, u applicable, including 

   effective dates and expiration dates. 


   Cost Report Reviews
   Quality assurance reviews are performed on annual cost reports and quarterly financials 

   submissions. These reviews ensure that submitted reports are complete, staff information is 

   accurate, and reported costs are reasonable. 


   The Department also performs an annual targeted financial review on at least 500/o of the cost 

   reports submitted. Randomly selected entries on the cost report are reviewed and selected 

   districts must provide financial documentation in support of those reported costs. 


   Financial documentation requested for the reviews includes, but is not limited to, the 

   following: 


           Original Receipt$
       • 	 Remittance Statements 

           Payroll Documentation 

           Contracts 


   Sampled districts are required to provide documentation of actual costs (in dollars) for each 

   selected entry. Policies regarding benefits, salary percentages, or other flat rates are not 

   considered acceptable documentation. Documentation must come from district financial 

   accounting or payroll systems. 


   MMIS Claims Reviews
   Ongoing claims reviews are conducted on a quarterly basis to ensure appropriate billing 

   practices. Areas of review include, but are not limited to, the following: 


      • 	 Claimed! Billed Rates
          Reimbursement Rates
          Dates of Service
          Coordination of Transportation Claims (with a direct medical or health-related
          Medicaid service by date of service)
          Procedure Codes and Modifiers

   Onsite reviews are conducted for at least 25% of participating districts each year. For onsite 

   reviews, a random sample of claims is selected from the MMIS claims database. Claims are 

   selected by student-month, where one student-month consists of all claims for one student 

   during one month ofthe fiscal year. 


   Sampled districts are required to provide internal records to support the selected claims 

   including the following: 



Report Number A-07-11-04185              December 5, 2011 	                         Page 9 of 10
                                                                                            Page 12 of 12




                  Department of Health Care Policy and Financing


      • 	 IEP/IFSP Effective on Date of Service (including Targeted Case Management care 

          plan or health plan, if applicable) 

      • 	 Attendance Record for the Date of Service
      • 	 Service Logs and/or Clinical Notes for the Date of Service
      • 	 Provider Qualifications

   The Department believes that the program reviews now conducted annually address the
   recommendations provided by the 010 in this report. The Department will also continue to
   strengthen its policies and procedures, based on experience with the providers and with
   guidance fiom CMS, related to the review of documentation to Sllpport claims made for
   federal reimbursement. However, the Department feels that this audit report fiom the 010
   undermines the progress that the Department and the providers have made since the approval
   of this program on July 23, 2008. The OIG's review does not capture the substantial
   improvements in processc:s and procedures that have occurred in the past three years.




Report Number A-07-11-04185             December 5, 2011 	                     Page 10 of 10
